Office of the

FEDERAL PUBLIC DEFENDER
for the District of Arizona
Capital Habeas Unit

Jon M. Sands
Federal Public Defender

direct line: (520) 879-7614
email: tim_gabrielsen@fd.org

February 17, 2021
The Honorable Scott Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Dear Mr. Harris:
Re:

Extension Request - Shinn v. Ramirez, No. 20-1009

The Federal Public Defender for the District of Arizona represents the Respondents, David
Martinez Ramirez and Barry Lee Jones in the above-referenced matter. I serve as counsel of
record. The Petition for Writ of Certiorari in this matter, which addresses two separate cases, was
filed on January 20, 2021, and docketed on January 27, 2021. The Brief in Opposition is currently
due, without prior extension, on or before February 26, 2021. Respondents respectfully request,
under Rules 15.3 and 30.4, an extension of time of 30 days, to and including March 29, 2021, to
file our Brief in Opposition. On February 16, 2021, counsel for Petitioner indicated to undersigned
counsel that the Petitioner consents to e-service of this letter and has no objection to the extension
of 30 days for Respondents to file the Brief in Opposition.
The extension is necessary due to undersigned counsel’s responsibilities in meeting court
deadlines in other capital habeas corpus matters pending before the United States Court of Appeals
for the Ninth Circuit and this Court. On February 3, 2021, counsel filed Petitioner-Appellant’s
Reply Brief in Lee v. Ryan, No. 09-99002 (9th Cir. Feb. 3, 2021), another Arizona capital habeas
corpus appeal. Counsel filed a Petition for Writ of Certiorari in this Court in Spreitz v. Shinn, No.
20-6773, on December 28, 2020, which was docketed on January 5, 2021. Respondents filed a
Brief in Opposition on February 5, 2021. Counsel continues to review the Brief in Opposition to
determine whether a reply will be necessary by the distribution date of February 18, 2021.
Respectfully submitted,
/s/ Timothy M. Gabrielsen
Assistant Federal Public Defender
Counsel for Respondents
cc: Counsel of Record for Petitioners (via e-mail).

407 West Congress Street, Suite 501, Tucson, Arizona 85701
(520) 879-7622 / (800) 758-7054 / facsimile (520) 622-6844

